<html>
<title> - THE POTENTIAL FOR INFRASTRUCTURE IMPROVEMENTS TO CREATE JOBS AND REDUCE THE COST OF LIVING THROUGH ALL-OF-THE-ABOVE ENERGY AND MINERAL PRODUCTION IN ALASKA</title>
<body><pre>[Senate Hearing 115-78]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 115-78

THE POTENTIAL FOR INFRASTRUCTURE IMPROVEMENTS TO CREATE JOBS AND REDUCE 
    THE COST OF LIVING THROUGH ALL-OF-THE-ABOVE ENERGY AND MINERAL 
                             PRODUCTION IN
                                 ALASKA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2017
                               __________






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-978                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, Jr., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
          Chuck Kleeschulte, Senior Professional Staff Member
                Annie Hoefler, Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
         Brie Van Cleve, Democratic Science & Technology Fellow
                David Brooks, Democratic General Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     4

                               WITNESSES

Masterman, Steve, State Geologist and Director, Division of 
  Geological & Geophysical Surveys, Alaska Department of Natural 
  Resources......................................................     5
Potrzuski, Hon. Bob, Deputy Mayor, City of Sitka, Alaska.........    23
Baker, Joy, Port Director, Nome, Alaska..........................    31
Moriarty, Kara, President and CEO, Alaska Oil and Gas Association   170
Rose, Chris, Executive Director, Renewable Energy for Alaska 
  Project........................................................   182
Trumble, Della, Business Manager, King Cove Village Corporation..   216

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Alaska Response Company, LLC and Aleutians Spill Control, Inc.:
    Letter for the Record........................................   285
Baker, Joy:
    Opening Statement............................................    31
    Chart entitled ``Port of Nome Vessel Calls, 1995-2016''......    32
    Photo of a cruise ship in the Port of Nome...................    34
    Photo of a vessel in the Port of Nome........................    36
    Photo of vessels in the Port of Nome.........................    37
    Written Testimony............................................    40
    Nome: Our Nation's Arctic Port...............................    50
    State of Alaska Position Paper: Support for an Arctic Deep 
      Draft Port at Nome to -36' MLLW through $1.6M in Design 
      Funds......................................................    52
    A Ten-Year Prioritization of Infrastructure Needs in the U.S. 
      Arctic dated April 15, 2016................................    56
    Report Card for Alaska's Infrastructure: 2017................   108
    Responses to Questions for the Record........................   247
Bering Sea Alliance, LLC:
    Letter for the Record........................................   288
Bethel Native Corporation:
    Letter for the Record........................................   290
Cantwell, Hon. Maria:
    Opening Statement............................................     4
Cold Climate Housing Research Center:
    Letter for the Record........................................   291
Cook Inletkeeper:
    Letter for the Record........................................   293
Diesel Technology Forum:
    Letter for the Record........................................   295
Khadjinova, Rada:
    Statement for the Record.....................................   299
Kreiss-Tomkins, Hon. Jonathan:
    Statement for the Record.....................................   303
Masterman, Steve:
    Opening Statement............................................     5
    Written Testimony............................................     8
    Responses to Questions for the Record........................   236
Moriarty, Kara:
    Opening Statement............................................   170
    Written Testimony............................................   172
    Responses to Questions for the Record........................   249
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Wildlife Refuge Association:
    Letter for the Record........................................   305
Potrzuski, Hon. Bob:
    Opening Statement............................................    23
    Written Testimony............................................    25
    Responses to Questions for the Record........................   246
Rose, Chris:
    Opening Statement............................................   182
    Written Testimony............................................   184
    Responses to Questions for the Record........................   251
Sitnasuak Native Corporation:
    Letter for the Record........................................   309
St. Mary's Native Corporation:
    Letter for the Record........................................   313
Trumble, Della:
    Opening Statement............................................   216
    Written Testimony............................................   219

 
                   THE POTENTIAL FOR INFRASTRUCTURE 
                    IMPROVEMENTS TO CREATE JOBS AND 
 REDUCE THE COST OF LIVING THROUGH ALL-OF-THE-ABOVE ENERGY AND MINERAL 
                          PRODUCTION IN ALASKA

                              ----------                              


                        THURSDAY, MARCH 30, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in Room 
SD-366, Dirksen Senate Office Building, Hon. Lisa Murkowski, 
Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good afternoon, everyone. The committee will 
come to order.
    I am pleased to welcome a great panel of Alaskans on 
today's sesquicentennial as we commemorate 150 years since the 
date Russia transferred to the United States the amazing place 
that we call Alaska. I had an opportunity to speak to this on 
the floor yesterday, and we just came from a lunch where we had 
further conversation, so it is only fitting and appropriate 
that we take a little bit of time this afternoon.
    As a committee, we have been focused on infrastructure as 
it relates to energy and natural resources, and we have had a 
broad and expansive discussion. I appreciate the partnership 
that we have with Senator Cantwell in looking at our nation's 
energy infrastructure needs.
    I think we recognize in the State of Alaska that we come 
from a state where we have a great deal of resource to offer, 
but more often than not, our opportunity to access that 
resource is limited because our infrastructure is limited. So 
this is an opportunity to talk about how we can enhance our 
infrastructure and thus better not only Alaska's position, but 
truly the position of our nation as a whole.
    So again, this is the fourth now in our ongoing series of 
hearings. Over the past few weeks we have focused on 
infrastructure needed for our electric grid, mineral 
development, federal land maintenance backlogs, western water 
supplies, and many of the other challenges within our 
jurisdiction. But today we are here to examine infrastructure 
through the lens of Alaska. The United States has had many 
reasons to be focused on Alaska, and as I noted in the 
statement that I made on the floor last night, there were many, 
many reasons that we looked specifically to Alaska with this 
purchase from the Russian territory. It was about our 
fisheries. It was about our strategic location. It was about 
our mountains. It was about the land itself. It was just to 
recognize that the size and scope of Alaska offered so much.
    One of the best returns that Alaska continues to provide 
for all of America is really through our natural resource 
production. We have tremendous stores of all types of energy. 
We have now produced nearly 19 billion barrels of oil. We have 
at least twice that left untapped. We have tremendous reserves 
of natural gas, some 255 trillion cubic feet, just waiting to 
be brought to market. We have vast amounts of coal, methane 
hydrates, and unconventional resources as well.
    Renewable energy is another hallmark of our state. We have 
it all. We have hydropower. We have wind. We have solar. We 
have geothermal. We have ocean energy. We have biomass. We have 
every renewable resource that you can think of. Many of our 
communities, especially in our remote areas, are developing 
hybrid microgrids that integrate these local resources to help 
them move away from expensive diesel generation. They are 
pioneering in these areas, and it is good to be a leader and 
have that be recognized.
    Alaska has also been the site of many mineral rushes over 
the years in Juneau, in the Klondike, in Nome, in Fairbanks. 
And again, there is plenty more of that where it came from. 
Today Alaska continues to have a world-class mineral base, 
ranging from gold, silver, copper, and zinc to rare earth 
elements, graphite, and platinum group metals, all of which 
serve as building blocks to our nation's manufacturing sector.
    Finally, I often describe myself as a child from the 
Tongass, having been born in Ketchikan. But when you think 
about the Tongass, nearly 17 million acres, more than three 
times the State of Massachusetts, and when you think about our 
extraordinary timber potential, really greater than any other 
state in the nation, and yet right now it is just a shell of 
its former self.
    I bring all this up not to recite a litany, but to 
demonstrate that Alaska was always a resource-producing state. 
That is where our bounty has been. That was the promise we 
received at statehood and many times since then. Responsible 
resource production was how we would become a steady member of 
our Union, how we would build our economy, and how we would 
sustain ourselves across generations.
    In recent years, access to federal lands and waters has 
become an issue that threatens our future. We have endured 
years of seeing our lands and our waters, our best 
opportunities for economic development, systematically locked 
down.
    But I think that we have an opportunity in a new 
Administration. Even in the depths of an economic recession 
that we are clearly seeing now as Alaskans--we know that, and 
it is a recession with a capital R. We look at this fiscal 
crisis, but I think we have good reason to be optimistic.
    Alaska is truly an all-of-the-above state. We were a true 
bargain for the country at roughly two cents an acre when that 
deal was inked 150 years ago, but it is also critical to 
remember that we are still a young state. We have very little 
infrastructure of any kind, especially compared to older 
states, and we know that new infrastructure is one of the best 
ways to address our major challenges, including our rural 
energy costs.
    So I look forward to hearing from our witnesses about the 
opportunities that we have to produce more of Alaska's 
resources in an environmentally sound manner while maintaining 
the beauty and the wildlife that make Alaska a great place to 
call home. We have proven across decades now that that is 
possible. What we need more than anything is access, and we 
need a partner at the federal level.
    To help put federal policy for Alaska on a better track, 
today we are here to consider a number of questions. First, 
what policies should we implement to identify Alaska's energy 
and mineral deposits, whether through mapping or mineral 
exploration? And it is great to have at the dais here the 
Renewable Energy Atlas of Alaska identifying some of our great 
opportunities there. What policies should we pursue to open 
more of Alaska's resources to responsible exploration and 
development? And what types of infrastructure, from roads to 
ports to pipelines, will we need to bring these resources to 
market, and what is our federal system capable of in granting 
approvals on a timely basis?
    We are going to hear testimony this afternoon regarding the 
Port of Nome and all that that opportunity presents. But we 
know that we need more than one port between Unalaska and the 
North, so we look to opportunities at Port Spencer, in 
Wainwright and Barrow, all the way along the coast, a system of 
ports and recognizing the need that we will have going into the 
future here, and what can be done to fulfill our state's goal 
of harnessing more of our renewable resources, especially to 
help our rural villages reduce the highest energy costs in the 
nation?
    Finally, understanding the status of the state and federal 
budgets, what are our low-cost options and how can we attract 
more private sector investment to Alaska?
    To help us understand these issues, we have a great panel 
of witnesses. We have Steve Masterman, who is Alaska's State 
Geologist. We have Mr. Bob Potrzuski, who is the Deputy Mayor 
in Sitka, a beautiful community in Southeast. We have Joy Baker 
from up north, the Executive Director for the Port of Nome. We 
have Kara Moriarty, who is the President and CEO of the Alaska 
Oil and Gas Association. We also have Chris Rose. Chris has 
been before the committee on several occasions. He is the 
Executive Director of the Renewable Energy Alaska Project. And 
finally, we have Della Trumble, also not a stranger to this 
committee, the Business Manager for the King Cove Native 
Corporation.
    This is a good day to be talking about Alaska and a great 
group of Alaskans to have here. I welcome all of you, and I 
thank you for traveling such a long distance to be with us.
    I am going to turn to Senator Cantwell for her opening 
remarks and thank her for the partnership that we have had as 
we have worked, again, not only on national infrastructure 
issues but her interest in helping us with the Alaska 
infrastructure piece.
    Senator Cantwell.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairman Murkowski, for 
holding this oversight hearing.
    As you know, I went to Bethel last February, along with 
several members of the Energy Committee, to learn about 
innovative solutions that Alaskans are coming up with. So today 
I am sure we are going to hear more from our local leaders here 
about the challenges that you face in Alaska's communities, not 
the least of which is the high cost of energy.
    Alaskans are used to goods and services being more 
expensive than the Lower 48, anywhere from two to ten times 
more expensive. And as the Chair reminds us, for households in 
rural Alaska, half of the total expenses can go to paying 
energy bills. Nearly 90 percent of rural communities are 
dependent on diesel fuel for their primary energy needs, which 
can cost over $8 a gallon. So I do not need to tell anyone here 
in this room that oil price fluctuation can hurt Alaska 
communities, and that is why diversification and new solutions 
are being deployed across Alaska to help reduce the cost of 
energy and moderate the impact on these fluctuations.
    Dozens of Alaskan communities are already diversifying 
their diesel microgrids with renewable sources of energy. The 
City of Kodiak combines wind turbines, fly wheels, battery 
storage, and hydropower. The cost of wind energy is $0.11 per 
kilowatt hour there compared to diesel generation, which is 
$0.29 per kilowatt hour.
    Weatherization of homes is also critically important in 
Alaska, especially in communities where home heating oil costs 
$8 per gallon. So I argue that it is time to make sure that the 
weatherization program helps all citizens of our country, but 
particularly the Alaskans. In my home State of Washington, the 
Weatherization Assistance Program helps 2,700 homes every year, 
and makes a big difference to those families.
    So transitioning electricity generation to renewable energy 
and improving our energy efficiency in Alaska's homes and 
buildings not only saves Alaskan communities millions of 
dollars, but it also helps mitigate the contribution to global 
climate change. As we all know, Alaska is disproportionately 
impacted by the devastating impacts of climate change. Alaska 
is warming at twice the rate of the rest of the country, which 
has a big infrastructure implication for a state 80 percent 
covered in permafrost.
    Communities faced with melting sea ice or permafrost are 
being forced to decide between relocating or staying put in 
harsh storms and rising sea levels. And I can tell you, Madam 
Chair, that we have the same issue in Washington along our 
coast as it relates to several of our Native American tribes 
who are in the very process of moving to higher ground because 
of various challenging situations.
    We know this too--cookie cutter solutions do not work in 
Alaska. The geographic isolation and limited local economies, 
cold climate, small and isolated grids present complicated 
challenges. The solutions that can be adopted in Alaska are not 
necessarily the exact same ones that are in other parts of the 
country, so we need to work on energy solutions developed by 
Alaskans for Alaskans with the technical assistance and robust 
networks of our national labs, academia, and the private 
sector.
    Now, I would say in closing, this is not of interest just 
to the Chair of this committee. A 2015 study showed that the 
Puget Sound area benefited from our Alaska trade relation with 
113,000 jobs and $6.2 billion in wages. That is in freight and 
cargo, seafood, maritime, and health care. The report is 
titled, ``The Ties that Bind Puget Sound and Alaska.'' We have 
been bound for a long time, and we plan to be bound for a long 
time in the future. In my opinion, helping Alaska work through 
its energy solutions is good for all of the economy of the 
Pacific Northwest.
    I look forward to hearing from the witnesses about what 
your ideas are on how we can best help. Thank you for traveling 
to be here with us in our nation's capital.
    The Chairman. Thank you, Senator Cantwell, and I appreciate 
the recognition at the end about the economic ties that our two 
states have. I can tell you that whether you are from King Cove 
or Anchorage or Nome or Sitka, all of these communities rely on 
goods that come through Washington. They are either coming out 
of the Port of Tacoma or the Port of Seattle or they are coming 
through by air out of Sea-Tac. So when you talk about ties that 
bind, our economies are inextricably tied. I appreciate you 
noting that as well.
    With that, we will begin comments from each of you. I would 
ask that you try to keep your comments to about five minutes or 
a little bit less, if possible. Your full statements will be 
included as part of the record, but that will allow for an 
opportunity for us to go through the full panel and then be 
able to ask questions at the end.
    Mr. Masterman, if you would like to kick off the panel here 
this afternoon. Welcome and thank you for being with us. I am 
looking forward to your perspective as our state's Geologist.

 STATEMENT OF STEVEN MASTERMAN, STATE GEOLOGIST AND DIRECTOR, 
DIVISION OF GEOLOGICAL & GEOPHYSICAL SURVEYS, ALASKA DEPARTMENT 
                      OF NATURAL RESOURCES

    Mr. Masterman. Thank you for that. Chairwoman Murkowski, 
Ranking Member Cantwell, honorable members of the Senate 
Committee on Energy and Natural Resources, as you noted, my 
name is Steven Masterman. I am Alaska's State Geologist and 
Director of the Alaska Division of Geological and Geophysical 
Surveys. On behalf of Governor Bill Walker and DNR Commissioner 
Andy Mack, I thank you for this opportunity to testify today.
    Today I will highlight the vast potential for energy and 
mineral development in Alaska, summarize the current state of 
infrastructure and resource information, and identify some of 
the areas in need of investment to spur development.
    As you know, Alaska holds some of the world's most 
prospective areas for hydrocarbon and mineral discovery on the 
planet. Infrastructure needed to increase resource development 
is critical to supporting Alaska's future economy, and there is 
an important federal role to be played.
    The focus of my testimony today is Alaska's mineral 
potential and its infrastructure needs. But before focusing on 
Alaska's mineral development needs, I want to stress the need 
to support development of Alaska's oil and gas resources as 
they remain our economically most important natural resources.
    Alaska has been working hard to develop what may be the 
largest infrastructure project in our nation's history, a large 
diameter natural gas line from Prudhoe Bay to south central and 
associated gas treatment and export facilities. This project 
would create thousands of jobs domestically supplying 
equipment, materials, and personnel and would inject billions 
of dollars into the state and national economy. The sale of 
this volume of gas would also meaningfully improve the United 
States balance of trade.
    In addition to this project, new east-west roads on 
Alaska's North Slope would facilitate exploration and 
production, connect communities, and reduce the cost of living 
in the region.
    Following recent North Slope oil discoveries, there is a 
need to improve knowledge of the region's petroleum geology and 
update oil and gas resource assessments.
    Finally, federal investment in high-risk, high-reward 
research into Alaska's unconventional gas hydrates, heavy oil, 
and shale should be a national focus because these represent 
undeveloped national scale resources.
    While there is no question that Alaska's mineral potential 
is immense, this potential is not yet realized. Alaska 
currently has five large operating metal mines. Western 
Australia, which is not even twice as large as Alaska, has 192. 
This underdevelopment can be measured in dollars. Mineral 
production in 2015 in western Australia was about $100,000 a 
square mile. In Alaska, it was less than $5,000.
    Alaska has very little road access. While the state has 17 
percent of the nation's land mass, we have less than one 
percent of the nation's roads. All the large mines in Alaska 
are located within 50 miles of existing roads or the coastline, 
and the majority of advanced projects and half of the state's 
7,400 mineral prospects also fall within 50 miles of a road. 
Simply put, infrastructure facilitates mineral discovery and 
production.
    For natural resource development, infrastructure not only 
means roads but also the foundation for all of development: 
information. Every step of the discovery and development of an 
oil or gas facility or a mine necessitates a comprehensive 
understanding of the geology and the surrounding environment to 
ensure that a project is executed in a safe and environmentally 
sound fashion.
    The fundamental information required is mapping, the simple 
understanding of where things are. Unfortunately, Alaska's 
geological, geophysical, geochemical, topographic, and hazard 
maps are incomplete at a scale usable for mineral or 
infrastructure development. At the current rate, many of these 
map sets will take centuries to complete. There has never been 
a better time to acquire this information because satellite 
computing and communication technologies allow for rapid data 
acquisition and distribution.
    There are numerous advanced mining projects that would 
benefit from physical infrastructure development in the form of 
roads, pipelines, ports, or processing facilities. These are 
detailed in my written testimony. Federal participation in 
these projects would move many toward development.
    At a time when domestic infrastructure investment is a 
national priority, the United States is becoming more than ever 
dependent on foreign supplies of minerals. With infrastructure 
support, Alaska's storehouse of mineral wealth could be key to 
reversing this trend.
    The potential national benefits from infrastructure 
development in Alaska are significant, increasing the domestic 
supply of minerals, increasing our competitiveness, 
strengthening America's position in the Arctic, boosting our 
economy, and improving our balance of trade. Through a federal 
partnership, we can build an information and infrastructure 
base that will promote Alaska's potential to lead the nation in 
mineral production and safeguard our economy and military from 
reliance on foreign supplies of minerals.
    In summary, the more we provide access to Alaska's natural 
resources, the more employment, economic, and security benefits 
we expect to accrue to Alaska and the nation. With solid 
federal support, we look forward to filling Alaska's role as a 
storehouse for our nation's energy and mineral resources.
    Thank you again for the opportunity to testify today.
    [The prepared statement of Mr. Masterman follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    The Chairman. Thank you, Mr. Masterman.
    Mr. Potrzuski.

 STATEMENT OF HON. BOB POTRZUSKI, DEPUTY MAYOR, CITY OF SITKA, 
                             ALASKA

    Mr. Potrzuski. Good afternoon, Chairman Murkowski, Ranking 
Member Cantwell, and members of the committee. My name is Bob 
Potrzuski, and I am fortunate enough to be the Deputy Mayor for 
the City and Borough of Sitka, Alaska. I have served on the 
assembly since 2015, and as a retired social studies teacher, I 
am beyond thrilled to be testifying today.
    Besides this amazing opportunity to personally be involved 
in our democracy, I am here to encourage Congress and the Trump 
Administration not to forget the funding of renewable energy 
projects in the development of any national infrastructure 
package.
    Located in southeast Alaska, Sitka is the United States' 
largest city, comprising 4,811 square miles of land and water. 
The city exists on approximately 14 miles of road on the 
western side of Baranof Island, completely surrounded by the 
beautiful Tongass National Forest. Accessible only by boat or 
plane, Sitka is certainly rural Alaska. Our town is home to the 
largest commercial fishing port in southeast Alaska and ranks 
as the 11th largest seafood port in the entire United States.
    Sitka has also found a niche as the regional hub for health 
care, and as with many southeast communities, cruise ships 
visit our port between the months of May and September. In 
addition, we are proud to be home to Coast Guard Station Sitka, 
with over 200 personnel stationed locally. Sitka is a robust, 
hardworking, and independent community.
    Sitka also has an extremely mild climate. With our 
oceanfront proximity, we receive abundant rainfall. The average 
annual precipitation is over 131 inches, making hydroelectric 
power an obvious solution for our community.
    However, at the turn of the century, demand for electricity 
was outstripping our generating capacity, affecting our ability 
to diversify and develop our economy. The Blue Lake 
Hydroelectric Project was originally licensed in 1958 and 
operates in conjunction with the Green Lake hydroelectric 
licensed in 1979.
    Between 2002 and 2008, fuel prices in Sitka skyrocketed 
from $0.71 a gallon to $3.24 per gallon. Electric power became 
cheaper than fuel, and many residences and businesses switched 
to electric heating. In 2006 and 2007, Sitka experienced 
significant load increases. About half of this growth resulted 
from increased use of electricity for heating, the other half 
from expansion of Sitka's seafood processing industry. Annual 
hydro generation shortages as great as 10,000 megawatts were 
projected by 2012, and with the then-cost of diesel fuel, this 
would have cost taxpayers and ratepayers an additional $3.3 
million per year, equivalent to an electric rate increase of 30 
percent.
    In 2007, the city began feasibility studies to determine 
how to meet these dramatic load increases. The studies 
evaluated hydro, diesel, wind, tidal, and geothermal energy. 
Generally, hydroelectric generation was considered the best 
alternative. It is great for the environment as hydro produces 
no carbon, does not contribute to ocean acidification, a 
leading concern of our fishermen, and is clean with no negative 
impacts on wildlife.
    In October 2010, the public voted in favor of the Blue Lake 
Expansion and Modernization Project. In late 2012, general 
construction bid costs came in at $145 million, which was 
shockingly higher than the $49 million engineers had estimated 
in 2008. As with many capital projects, the original estimate 
likely did not adequately consider the cost of work in 
southeast Alaska or the difficult access, constraints, and 
unique construction methods required for the project.
    Thankfully, the State of Alaska did provide grants to lower 
the debt service, but there was no federal assistance for the 
project. Construction crews raised the dam by 83 feet and built 
a new powerhouse. In total, this project increased electrical 
capacity by over 27 percent. Construction of the largest public 
works project in the city's history was completed in November 
2014.
    Now Sitka is faced with other electrical needs: rebuilding 
an electric substation, rebuilding a major transmission line, 
overhauling the Green Lake Hydro Project, and rebuilding our 
emergency diesel backup system. These necessary projects come 
with a price tag of over $14 million, all at a time when 
Sitkans are paying for a new dam.
    The support of the community has been tested as electrical 
rates continue to rise; however, the significant community 
investment has ensured an environmentally responsible and 
renewable energy source for Sitka's future.
    Sitka and other Alaska communities are currently similarly 
placed as many rural communities in the Lower 48 were in the 
1930s and 1940s when the TVA brought electricity to Appalachia 
and the Bonneville Project helped electrify the Northwest. 
Though we are blessed with abundant natural resources such as 
rain and wind, the barriers to harnessing these sustainable 
energy sources are the staggering upfront capital costs. 
Federal assistance investing in renewable energy infrastructure 
or adding energy to the national infrastructure package is 
essential for future economic development and the success of 
our small rural communities.
    Thank you so much.
    [The prepared statement of Mr. Potrzuski follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
      
    The Chairman. Thank you. I so appreciate that testimony.
    Joy Baker, welcome.

      STATEMENT OF JOY BAKER, PORT DIRECTOR, NOME, ALASKA

    Ms. Baker. Thank you, Chairman Murkowski, Ranking Member 
Cantwell, and members of the committee. My name is Joy Baker, 
and I want to thank you for the opportunity to appear before 
you today. I am the Port Director in Nome, Alaska, where I have 
worked for the past 25 years. My testimony today is based on 
the experience I have gained while working to expand the port's 
capabilities to meet increased vessel traffic and support 
economic development in the region.
    There are really only three ways to get to Nome, to quote 
our illustrious Mayor Beneville: by boat, by plane, and of 
course, by dogsled. Today I will focus on Alaska's ports and 
highlight the opportunities specifically presented in Nome for 
the near-term development of an Arctic deep draft port.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ports are the lifeblood of Alaska. It is that simple. There 
are no statewide major land transportation links to the Lower 
48, and it cannot all come in by air. It is the 125 ports 
scattered along 44,000 miles of Alaska's coastline that provide 
the lifeline for commodities coming in from the outside or for 
resource exports from the state. The vast majority of cargo 
coming into Alaska flows through the Port of Anchorage, with 
significant exports moving through ports in Valdez, oil; 
Seward, coal; Unalaska, seafood; Nikiski, LNG; and of course, 
Red Dog, minerals. The network of ports in Southeast and South 
Central also make it possible for the cruise ship industry to 
bring more than one million tourists a year to Alaska's shores.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Port of Nome is located just below the Arctic Circle, 
and it is a regional transshipment hub for more than 54 western 
Alaska communities. These communities rely on the port for 
movement of heating oil and gasoline, construction supplies, 
nonperishable foods, gravel, and other cargo. It is also the 
staging ground for operations north of the Bering Strait, as 
vessels prepare for the ice-free season and consequently serves 
as their demobilization center in the fall.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Despite the overall importance of ports to the state, the 
American Society of Civil Engineers 2017 Infrastructure Report 
gave Alaska's ports a grade of D. This is a sobering message 
and underscores the need for action.
    As this hearing is focused on energy and mineral production 
opportunities, I will highlight how Nome is well positioned to 
support both. Mining has played a vital role in Nome's 
development and will continue to do so in the years to come. 
The world-class Graphite Creek prospect near Nome has been 
characterized as the best graphite deposit in the country. The 
Port of Nome will play a key role in supporting its development 
and exporting the raw material.
    According to the USGS, the area north of the Arctic Circle 
has an estimated 90 billion barrels of undiscovered, 
technically recoverable oil and more than 1.6 trillion cubic 
feet of technically recoverable natural gas.
    While Shell's exploration of the Burger Prospect led to a 
spike in vessel activity in the Chukchi Sea region, the reality 
is that vessel traffic at the Port of Nome continues to grow 
significantly post-Shell. The bulk of the 2016 increase is 
directly related to more foreign fuel tankers, research 
vessels, domestic and foreign government vessels, gravel, and 
cargo. Nome also hosted the largest cruise ship to transit the 
Northwest Passage for a very successful port call last August.
    The increased maritime activity brings much needed economic 
opportunity to the region, but also great risks without the 
infrastructure to support the needs of the larger vessels. We 
need to expand our port facilities to minimize the number of 
ship-to-ship fuel transfers and reduce waste discharge in 
Arctic waters capable of harming cultural subsistence hunting 
and fishing.
    The time is now to move ahead with the development of an 
Arctic deep draft port in Nome, and Nome stands ready.
    After extensive evaluation of numerous sites in 2015, the 
Army Corps selected the Port of Nome as the preferred site. 
This decision was based on the Port of Nome's overall ability 
to meet the mission operations criteria, the geographical 
advantages, and the presence of active commercial port 
operations, as well as existing shore-based infrastructure, 
including a fuel tank farm, a fuel service hospital, and an 
airport with two 6,000-foot runways.
    The development of an Arctic deep draft port in Nome is 
critical to the long-term viability of the community, the 
region, and the Arctic. Yes, there is need for development of 
additional port capacity in northwest Alaska, and Nome will be 
the first step of many.
    In conclusion, here are my recommendations: secure strong 
federal funding for Alaska's ports, including dredging, 
maintenance, and construction; support the timely development 
of an Arctic deep draft port in Nome; accelerate hydrographic 
charting in Alaska, especially in the Arctic; and support the 
designation of Nome as an Arctic strategic port.
    While Alaska has made significant progress since statehood, 
the next few years will make a big difference, and support from 
Congress is absolutely necessary to achieve that goal.
    Thank you again for the opportunity to appear before the 
committee, and I am happy to answer any questions you may have 
later. And I would like to request that my full written 
statement be included as part of the record, along with several 
supporting documents.
    [The prepared statement of Ms. Baker follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
     The Chairman. They will be incorporated as part of the 
record. Thank you, Joy.
    Kara Moriarty, welcome.

 STATEMENT OF KARA MORIARTY, PRESIDENT AND CEO, ALASKA OIL AND 
                        GAS ASSOCIATION

    Ms. Moriarty. Good afternoon, Chair Murkowski and other 
members of the committee. My name is Kara Moriarty, and I am 
the President and CEO of the Alaska Oil and Gas Association. It 
is truly an honor to be here today, and I thank you for the 
opportunity to testify.
    To truly evaluate the potential infrastructure needs and 
benefits relating to oil and gas in our state, it is important 
to put in context our state's resource potential, which you 
mentioned at the beginning of the hearing, as well as our 
nation's resource demands.
    It is important to note the significance of the industry on 
the economy. Mr. Masterman mentioned that, and the reason we 
say that is one-third of all jobs in the state can be 
attributed back to the oil and gas industry. And revenues from 
the industry have dominated the state revenues. To put it 
bluntly, the oil and gas industry is the state's largest 
economic driver.
    On this very day 150 years ago, the United States purchased 
Alaska from Russia. And I doubt that little did Americans know 
what other vast resources were yet to be discovered beyond what 
they knew was already there.
    The first oil was discovered early in the 20th century, but 
the first commercial discovery happened 60 years ago in the 
Cook Inlet Basin. But what truly changed the landscape for 
Alaska was the giant discovery on the North Slope. At the time, 
the Prudhoe Bay field was the largest discovery in North 
America, with estimates of 9.6 billion barrels of oil and 26 
trillion cubic feet of natural gas. It was during this time in 
the 1960s that Congress enacted a series of significant 
environmental legislation and the Trans-Alaska Pipeline System 
was constructed.
    This summer will mark the 40th anniversary of production 
from the North Slope. And since that time, over 17 billion 
barrels of oil have been produced. Production peaked at just 
over two million barrels a day and, at the time, represented a 
quarter of our domestic production. But today production now 
averages around 500,000 barrels a day, which represents less 
than six percent of the nation's domestic supply.
    But there is reason for great optimism for Alaska, that we 
can continue to assist this nation in meeting its energy 
demands for future generations. Just last year, production 
increased in Alaska for the first time from the previous year, 
and stable and increased production is not only important for 
the upstream side of the industry, but also for the downstream 
side. In-state refineries not only supply Alaska families and 
businesses with much important fuels, but they also provide--
the refineries provide--a crucial role in supporting our 
military forces as well.
    So billions and billions of oil and natural gas remain, and 
estimates show that one-third of the nation's reserves are in 
the Arctic. My written testimony goes into detail about the 
potential near-term and long-term projects.
    But as we talk about infrastructure, the U.S. Department of 
Transportation released a report prioritizing the 
infrastructure needs in the Arctic. Conservative estimates 
predict that vessel traffic in the Arctic will more than double 
by 2023. Obviously, identifying infrastructure projects that 
have multiple benefits to multiple stakeholders is vital. The 
report focused on five core components: navigable waterways, 
physical infrastructure, information infrastructure, response 
services, and vessels. Progress in those areas will invariably 
support both offshore and onshore oil and gas development.
    The report offered a litany of recommendations, some of 
which you just heard about today such as an Arctic port, 
coordination with stakeholders to coordinate research efforts 
and to continue to allow for subsistence activities, charting 
maritime waters, improving weather and climate predictions, and 
supporting development of response equipment.
    The industry does not desire federal infrastructure 
projects that would serve to merely subsidize one particular 
energy project over the other. Rather, efforts should focus on 
coordinating with stakeholders to identify infrastructure 
corridors, which could mean shared roads and pipelines, to not 
only aid the industry, but also local communities, and other 
aspects of the public and private sector.
    Frankly, the federal agencies could do more to help build 
an environment so that private industry will build the 
infrastructure by working together to assist in permitting and 
regulatory cooperation.
    The North Slope needs basic infrastructure projects that 
will meet the most basic needs. And of course, those would lead 
to benefits to the industry, but what really leads to delay in 
infrastructure from our perspective is often the cost and the 
delays. We just ask for reasonable, rational, and timely 
permitting and a regulatory framework to allow the private 
industry to invest in the infrastructure to support the 
communities and ourselves.
    So, again, we thank you for the opportunity to be here 
today, and I, again, appreciate and will take any questions 
that you may have.
    [The prepared statement of Ms. Moriarty follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Kara.
    Chris, welcome.

 STATEMENT OF CHRIS ROSE, EXECUTIVE DIRECTOR, RENEWABLE ENERGY 
                     ALASKA PROJECT (REAP)

    Mr. Rose. Thank you, Madam Chairwoman and members of the 
committee. It is a great honor to be here. I appreciate the 
opportunity to speak.
    I am the Executive Director of Renewable Energy Alaska 
Project, which is a statewide coalition of more than 80 
organizations that have a mission of promoting renewable energy 
and energy efficiency in Alaska. And we typically do not focus 
in on specific projects. Instead, we promote policies and 
programs that will develop renewable energy projects and energy 
efficiency projects across the state.
    In 2008, we were instrumental in getting a state law passed 
to create the renewable energy fund, which has set up a great 
vetting system to look at how projects should be developed and 
score them. That resulted in $257 million of state money going 
into renewable energy projects and leveraging about another 
$130 million in private and federal money.
    Sixty-six projects have been built so far, mostly in rural 
areas, and we have talked about how expensive it is to operate 
in these communities where the cost of energy often takes 50 
percent of a person's take-home pay. Those 66 projects so far 
are displacing 30 million gallons of diesel today, and we 
believe that we can continue to optimize those projects. We 
know that we can continue to build more projects, but as you 
know, the State of Alaska's budget crisis has got us to the 
point we do not have a lot of grant money right now.
    So one of the things that we are looking at is we are at a 
crossroads and we need to find ways to bring in public-private 
investments. I spent the last three days in Juneau with Bert 
Hunter, who is the Chief Investment Officer of the Connecticut 
Green Bank. That is the second time he has come to Alaska 
graciously this year. We met with legislators, members of the 
Administration, the Mayor of Anchorage, and bankers yesterday.
    Essentially what Connecticut has done has been really 
interesting for us to see. They had a renewable energy fund 
like we did for about 11 years, from 2000 to 2011, and during 
that time, they had about a one to one leverage. They put in 
about $350 million in incentives, and they got about $350 
million back out in matching money. In the five years since 
they have had the Green Bank, since 2011, they have done a 
billion dollars worth of clean energy financing, almost all 
with private money. They are getting 11 to 1 ratios now on 
private money. Some of the biggest banks in the world are now 
part of the Connecticut Green Bank, and essentially what they 
have been able to do is leverage very small amounts of public 
dollars and de-risk these projects and educate the private 
banking community on how this works. We believe this is a real 
opportunity for the State of Alaska.
    And Connecticut has really benefited from the fact that 
there are federal programs out there like USDA, like other loan 
guarantees, and the things that are supporting people all 
around the country are also supporting the people in 
Connecticut indirectly when the Connecticut Green Bank can use 
that to de-leverage or to de-risk projects.
    We are here to talk about infrastructure, and of course, 
one of the biggest infrastructures we have got here in the 
country is our buildings. We have 120 million buildings across 
the country. It uses 42 percent of our primary energy and about 
72 percent of our electricity. And in Alaska, we have evidence 
now that we can do a lot better. We have an inefficient 
building stock. The state's housing authority has administered 
a program over the last ten years or so that has served over 
40,000 homes, and the average savings has been 30 percent.
    We are spending, in the State of Alaska, collectively, we 
estimate, about $5 billion a year on energy. That is 
transportation, heating, and electricity. And just from our 
experience in seeing how inefficiently some of this energy is 
being used, we believe we could save 20 percent of that. That 
is a billion dollars that we could keep in our economy every 
year if we invest. And those investments, of course, are going 
to bring all kinds of jobs.
    There are three million people working in the renewable 
energy industry right now in the United States. Last year 
globally the renewable energy industry grew by seven percent. 
It is surging. It is one of the biggest industries in the 
world, and Alaska has an opportunity to be a world leader in 
these microgrids, which is a huge opportunity. There are 700 
million people around the planet, we estimate, on diesel. We 
have about 50,000 or 60,000, and we are concerned about them. 
But there are 700 million people on diesel, and there is 
another 1.5 billion people who do not have any electricity at 
all. So we have a huge first mover advantage.
    But Alaska's opportunity to be that leader in large part 
depends on the U.S. continuing to be a leader. If the U.S. is 
not a leader in renewable energy, then China and Europe will 
rush in. There will be a vacuum, and we will not be able to 
continue to do the kinds of things we are doing in Alaska. It 
is very important for us to have the support of the federal 
agencies, of the federal programs, of the national 
laboratories. All that is super important for the ability for 
Alaskans to continue to be leaders.
    We think this could be a future part of our economy. We are 
working very hard on not only the financing, but the work force 
development part of making this stuff happen because it is not 
just technology. We have got to make sure that we can operate 
and maintain it. We are creating a new program now called the 
Alaska Network for Energy Education and Employment so we can 
link together the K through 12 and the vocational and the 
university programs we have got in the state and make them work 
synergistically and better.
    So I really appreciate the opportunity to talk a little bit 
about this today, and thank you very much.
    [The prepared statement of Mr. Rose follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
    The Chairman. Thank you.
    Last up is Della Trumble. Welcome back to the committee.

STATEMENT OF DELLA TRUMBLE, BUSINESS MANAGER, KING COVE VILLAGE 
                          CORPORATION

    Ms. Trumble. Thank you. Good afternoon, Senator, Chair 
Murkowski, Ranking Member Cantwell, and members of the 
committee. My name is Della Trumble. I am an Aleut from King 
Cove, Alaska. I am the Business Manager for our village 
corporation that was created under the Alaska Native Claims 
Settlement Act (ANCSA). I am also a member of the Agdaagux 
Tribe of King Cove. And I would like to recognize Stanley Mack 
behind me, the Mayor of Aleutians East Borough, and Gary 
Henning, the City Manager for King Cove.
    I have lived in and around the Aleutian Islands and the 
Alaska Peninsula all my life and my ancestors have for 4,000 
years. I am proud of my heritage and my connection to this part 
of the state.
    I am also pleased to testify here today since today marks 
the 150th anniversary of the treaty between the United States 
and Russia to formally purchase what is now the State of Alaska 
from the Russian Empire. Residents of King Cove are proud 
Alaskans and Americans. We are also proud of our community, as 
we live in harmony with the nature of the seas, land, and 
resources that surround us.
    Together, the unique human and natural environment of rural 
Alaska brings many opportunities and challenges to improve our 
lives. I also realize the infrastructure needs in rural Alaska 
for energy, water, sewer, landfills, and transportation 
facilities have enormous costs that all levels of government 
are struggling to deal with these days.
    I would like to provide some examples of our forward 
thinking regarding infrastructure development in King Cove. My 
community has experienced the positive value of forming 
partnerships with the city government, the village corporation, 
and local tribes for developing renewable energy facilities. 
Since 1994, an environmentally friendly run-of-the-river hydro 
facility has been providing more than 50 percent of the 
community's annual energy supply. This hydro facility, Delta 
Creek, has been the most productive, single-site, renewable 
energy facility anywhere in rural Alaska. At $0.30 a kilowatt 
hour, King Cove has the cheapest, a relative term, cost of 
electricity anywhere in rural Alaska from the more than 150 
single-site utility grid communities. In Cold Bay, the closest 
community to King Cove, they are paying $0.67 a kilowatt hour, 
which is more than twice the cost that we pay in King Cove. 
There are 150 single-site grid communities. The average cost is 
$0.45 a kilowatt hour. So we are very fortunate.
    Our Delta Creek Hydro Project was built on land owned by 
the King Cove Corporation and partially funded by the U.S. 
Department of Energy grant to the Agdaagux Tribe. The city also 
borrowed $2 million, one-third of the total project, from the 
U.S. Department of Agriculture. Since 1994, Delta Creek has 
displaced over 3.5 million gallons of diesel fuel and saved 
over $5.5 million in electric utility operation costs. These 
reductions have translated into an annual household savings of 
about $1,000 a year. There is no comparison in rural Alaska 
where a community for the last two decades has so drastically 
reduced its dependency on diesel fuel.
    We are excited to report that in October 2017 the new 
Waterfall Creek facility will come online, and this will 
benefit and aid savings of over 75 percent of King Cove's 
annual energy demand of 4.5 megawatts. The annual energy 
production from these two hydro facilities will replace more 
than 300,000 gallons of diesel fuel a year.
    The Waterfall Creek hydro is costing $7 million. It was 
also built on land owned by the corporation. The city is 
incurring the debt for about 50 percent of this cost. This is 
considerable debt for our community to incur, but our 
experience with Delta Creek has instilled our thinking that the 
power of renewable energy is a key component to the sustainable 
future.
    I would also like to note that $1.5 million of costs for 
Waterfall Creek has incurred in the State of Washington with 
the fabrication of turbine, generator, penstock, and the 
shipping of this material and construction equipment from 
Seattle to King Cove. Given our geographic location, we depend 
on a strong business relationship with the Pacific Northwest, 
as you stated earlier.
    Finally, our hope is that our renewable energy 
accomplishments in King Cove will further encourage our 
neighbor communities to move forward with proposed tidal wave 
energy in False Pass, additional wind generation in Sand Point, 
and geothermal energy in Akutan.
    Madam Chair, this hearing is about infrastructure 
improvements needed to reduce the cost of living in Alaska. But 
for those of us in King Cove, the key infrastructure to reduce 
our cost of living is the 11-mile road connecting King Cove to 
the Cold Bay Airport.
    And how will this reduce our cost of living? If you had 
witnessed a crash at the King Cove Airport with your daughter 
on board, as I did a few years ago, you would understand my 
cost of living comment and that every resident in King Cove is 
an emotional cost of living with potential danger to our lives 
and those of our loved ones almost every time we have to fly 
between King Cove and the Cold Bay Airport to access health and 
medical services in Anchorage, which cannot be provided in our 
small clinic.
    However, our clinic can provide one thing that many of us 
do not really want to have, and that is a two-pill prescription 
of Valium, one to fly out of King Cove and one to fly back. 
This is indicative of the fear of flying that the majority of 
our residents have because of our unusual turbulent weather.
    This committee is familiar with the status of King Cove and 
its need for basic transportation infrastructure in the form of 
an 11-mile, one-lane gravel road connecting our communities.
    Madam Chair, we really need this road now and it is a vital 
element of missing infrastructure in King Cove to our well-
being and will change our cost of living so that our residents 
can have a safe life and not always have to worry about every 
time we risk our lives traveling for medical and health and 
safety reasons.
    Since the unfortunate decision by the Department of the 
Interior on December 23, 2013, King Cove has experienced 58 
medevacs to save lives, including 17 by the U.S. Coast Guard.
    Again, thank you, Madam Chair, for continually championing 
our cause. We also would like to thank our Governor, Bill 
Walker, and our delegation. The Governor's presence is 
particularly felt because of his vision and commitment to ask 
the State Legislature for $10 million in state funding to help 
for paying for this road. All we need is for Congress to say 
yes one more time for legislation that will finally allow for 
this lifesaving road to be built.
    Again, I thank you, and I hope that our full testimony can 
be on record. It looks like I went way over the time, and I 
apologize. Thank you.
    [The prepared statement of Ms. Trumble follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Della, thank you. Yes, you did go over the 
five minutes, but what you have included as part of the record 
merely supplements much of what we have heard in this very 
committee room over the years about the need for that 
lifesaving road. So know that the commitment is there to work 
with you and Mayor Mack and all of the fine people of King Cove 
to assure that this small piece of infrastructure is addressed. 
I think it is no secret to anyone. We have been talking early 
with this Administration to make sure they know that it is not 
only a priority of this delegation, but why it is a priority of 
so many Alaskans. So we continue in that area.
    I really appreciate all that you have provided for the 
committee today, and I want you to know that while we do not 
have a lot of committee members here this afternoon, know that 
it is Thursday afternoon, and we will have one more vote I 
believe in about 40 minutes or so. But what you are providing 
today is comment for the full committee record. So while 
members might not be here to personally question you, what we 
are laying down here this afternoon helps to form the basis for 
much of what this committee will be attempting to advance as we 
work toward legislation.
    You all know that last year Senator Cantwell and I and 
members of the committee worked very aggressively to build a 
comprehensive energy plan, something that the Congress has not 
seen in close to ten years now. We were very close to moving 
that, but we did not get it across the finish line. Well, we 
started that back up again today. In this morning's Energy 
Committee Business Meeting, we were able to advance 62 bills 
across this dais ready to go to the floor to be packaged as 
part of that comprehensive bill.
    Much of what we did last year--you mentioned the 
efficiencies, Chris, and some of the progress that needs to be 
made. When you think about the ability to provide for financing 
and opportunities for things like hydro, being able to identify 
that as a renewable resource and make available opportunities 
on the federal side because of its designation as a renewable 
resource is going to be important to us. So we are picking up 
where we left off--some of that. But what you have done today 
has really helped to supplement that.
    Now, I want to gain from you information about some of the 
infrastructure and why it is so significant to us in Alaska 
because, I will tell you, part of my problem here is when the 
President is talking about an infrastructure package, he is 
talking about a big infrastructure package. They are using the 
T word, that it is going to be trillions of dollars. What they 
want, what everybody wants, is the big package. They want the 
big project.
    Well, in Alaska, part of our problem is the big project may 
cost a lot of money, but when they look at it from a cost-
benefit analysis, the number of people that you are benefiting 
there in Sitka is not as many as you would be able to benefit 
if you were in the Lower 48 and you have a significant hydro 
project. In the Port of Nome, they look at the population of 
Nome and they say, well, spending that kind of money, $14 
million, here--and how many full-time residents do you have? 
Then, of course, there is always the story of King Cove. We are 
talking about a community of less than 1,000 people. So why are 
we spending so much money on a road?
    So what I would like to ask--I think I will target my first 
question to you, Bob and Joy and Della. When we are talking 
about these infrastructure projects, if you can speak to the 
significance of not only the impact to the year-round 
residents, whether it is Sitka, Nome, or King Cove, but to the 
region, the ripple effect that comes when you can get goods 
delivered cheaper in Nome--how that translates into smaller 
communities that are more in the interior. I would like you 
each to speak to how you would educate my colleagues about the 
benefit of these higher cost infrastructure projects to what on 
paper would be a difficult cost-benefit analysis.
    Who wants to go first? Let's go to Sitka.
    Mr. Potrzuski. Thank you, Senator.
    As I pointed out, Sitka is the 11th largest fishing port in 
the United States, and we do not eat all that fish. Obviously, 
it goes elsewhere. And right now we are walking a real thin 
line with our current infrastructure. Our electric department 
likes to say that it was new in 1982. If we have a major 
transmission line disruption, we could literally be without 
power for months, which would decimate the fishing industry, 
processing industry, in Sitka. The amount of money that 
generates region-wide, you know, when you have fishermen that 
come from all around southeast Alaska and even from the 
Northwest to fish in Alaska, it certainly would have a 
deleterious effect on that. So we are desperate to try and 
figure out how to upgrade our infrastructure so that we can 
continue to provide that service that Sitka does. Is that 
helpful?
    The Chairman. Yes, thank you.
    Joy.
    Ms. Baker. Thank you, Senator.
    I believe that it is clear that the transshipment costs in 
Alaska are significantly high. They are increased much more 
exponentially in the western Alaska region. In order to reduce 
those costs and gets those goods transshipped to the remote 
coastal communities, we truly need to get the deeper draft 
vessels into Nome, which will bring increased efficiency 
through the larger tanker delivery capacity and lower the cost 
for transshipping in the region of not only fuel, but also for 
goods and exporting gravel to develop and build these 
communities and expand. We provide the gravel resource for the 
majority of the airports, roads in these communities, and they 
are paying the transshipping costs of a lighter draft barge to 
come in and load and bring to their community. I think the 
increased step is extremely important in order to lower the 
cost of distributing those goods and services to these regional 
communities to allow them to lower their cost of existence in 
these remote locations.
    The Chairman. Della, I think you indicated that you had 
replaced 300,000 barrels of diesel by your project. Is that 
right?
    Ms. Trumble. Senator, I am going to have Gary answer that, 
but yes, it is 300,000 gallons. I think looking at that, that 
basically changes into a large savings when you are looking at 
not only moving that 300,000 gallons from Washington to Alaska, 
having to use less. But Gary I think could probably answer a 
little better on anything that needs to be added to that.
    The Chairman. Gary Henning.
    Mr. Henning. Real quickly, Senator. The savings in fuel 
pays for the debt service that we have had to incur. It has 
allowed for the community to know that we can have a stable and 
cheap kilowatt hour for King Cove for at least the next 20-30 
years. And we did not talk about certainly taking the carbon 
out of the environment and what that does for the residents of 
King Cove as well.
    The Chairman. This is another area of inquiry that I would 
like to get out on the record. We are talking about cost 
savings most clearly, but there is clearly an environmental 
savings. You just mentioned, Della and Gary, that you are 
seeing a significant reduction in terms of the amount of diesel 
that you are bringing in. The whole aspect of the carbon--you 
know, when you think about the transshipment issues that you 
face in a place like Nome where you are lightering from one 
vessel to another, whether it is fuel, whatever the resource 
is, it is an issue that if you have an opportunity for a part 
where you can tie up to dock, you not only have cost savings, 
but you have environmental issues that you are able to 
eliminate as well.
    Ms. Baker. Yes, Senator. The offshore ship-to-ship 
transfers have significantly increased the last three years. 
One event that comes to mind is when Secretary Darcy was in 
Nome last year and noticed the tanker sitting offshore, she 
asked what they were doing. We shared with her that they were 
transferring fuel back and forth. And she was surprised and 
said we need to do whatever it takes to get that gas station 
back on shore. It needs to be on shore, not on the water. So 
she made a very quick deduction that that was a risk, which of 
course it is. I think that is why we have the significant 
support of some of the regional communities, Bethel Native 
Corporation, St. Mary's Native Corporation, to expand the Port 
of Nome and reduce those risks for those offshore transfers and 
reach the cost savings that they so desperately need.
    The Chairman. We are all reflecting a little bit on 
Alaska's history today. My grandparents lived in Nome in the 
mid to late 1920s, and we still have pictures and actually 
video that my grandfather took of the steamships that were 
anchored off. And what people did for entertainment was to 
watch as the small boats were loaded with people as they were 
coming onto shore basically riding the rollers in, not exactly 
a fun ride, but that is how people got to shore from the 
steamships then. That was 100 years ago, yes, and we are still 
in the same situation where, hopefully, they are not watching 
that for entertainment.
    I want to talk a little bit here about some of what Steve 
Masterman has advanced with the discussion about what we have 
with our resources underground, whether it is our mineral 
wealth, whether it is our oil, and whether it is our gas. We 
had a hearing Tuesday of this week focused on critical minerals 
and the reality that as a nation we have done a woefully poor 
job of understanding that mineral wealth, that resource wealth 
in terms of mapping it. We were given an updated assessment 
from USGS on some of Alaska's assets that have been identified.
    What do we need to do to ensure that we have a better 
understanding of what it is that we have? Again, I started off 
my comments by recognizing that we have really, I think, a good 
and a strong atlas of our renewable energy resources, and I 
think that that is an important thing for us to know where 
these assets lie. Not everything is situated equally. Wind is 
not good everywhere. Certain renewables just do not work 
everywhere. But how are we coming in your view in understanding 
our inventory of the minerals that we have available to us?
    Mr. Masterman. Senator, if you have to leave in 45 minutes, 
I will have to be brief. [Laughter.]
    We are way behind the power curve, Senator. As you may be 
aware, our state is large. Geological mapping started in our 
state in the end of the 1800s, and we are right now--two-thirds 
of our state is mapped to the scale of 63,360 feet to one inch 
for geology. Sixteen percent of our state is mapped to the 
scale of an inch to a mile, which is really what we consider to 
be the usable scale, and about 0.1 percent is mapped at an inch 
to 24,000.
    The Chairman. What is the Lower 48 mapped to?
    Mr. Masterman. I heard that in the testimony that was given 
here recently that the number was about a third mapped at a 
usable scale for energy and resource development and 
infrastructure. I am not sure whether that is an inch to a mile 
or they are talking about 1 to 25,000. So when you factor in 
the area of Alaska, the Lower 48 is probably about 50 percent 
mapped, and our state is 16 percent mapped.
    If you look at some of the other data sets that are 
required for mineral development, airborne geophysics being one 
that is very rapid to acquire, we are about four percent mapped 
with regard to that data set.
    Geochemical surveys. The Lower 48 recently completed a soil 
geochemical survey for the entire Lower 48 states. It has not 
begun in Alaska here, so that is 0 percent complete.
    Our stream sediment surveys, which are really an arrow as 
far as pointing at where mineral occurrences may be present--
say you take an element like silver, which Alaska is the 
largest producer in the nation of silver. Only 15 percent of 
the quadrangles in the state have an adequate number of stream 
sediment samples that would allow any modern exploration 
company to evaluate whether silver might be an economically 
viable commodity there.
    Mineral assessments. Mineral assessments in our state were 
essentially stopped in the 1980s under the AMREP program and 
none have really been completed since then. So those need to be 
updated because many of the commodities that are currently 
being used--and rare earths being a fine example of that--were 
not well understood, were not well documented at that time. In 
order to do those mineral assessments, you really have to do 
the foundational information. Otherwise, it is garbage in, 
garbage out. So the basic mapping needs to be completed and 
then the mineral assessments need to be updated.
    The same really can be said for the petroleum systems too. 
The USGS has done a fine job of assessing their remaining 
undiscoverable oil and gas potential in the state, but some of 
those assessments have proved to be inaccurate I would say. 
They have underestimated the amount of oil and gas that is 
present. The recent discoveries at Pikka and Willow on the 
North Slope highlight that, that they do not really account for 
those recent discoveries in their estimates of undiscovered, 
potentially recoverable oil. So I think there is a lot to be 
done in terms of the petroleum geology to our understanding 
that, as well as redoing the petroleum assessments for the 
North Slope.
    The Chairman. Well, thank you for speaking to where we are 
on land. I think we recognize that offshore we are also 
woefully unmapped, uncharted. We talk a lot here in this 
hearing room about how so much of our offshore areas are either 
uncharted at this point in time, unmapped, or we are relying on 
lead line readings taken back in the day of Captain Cook. 
Unfortunately, every now and again, we find a vessel that 
encounters something that was not on somebody's chart, and we 
saw that just last year off of Unalaska.
    So much of all of this, whether it is an inventory or 
mapping, all comes down to money, and it is getting tougher on 
the state side, of course, and it is not really that much 
easier on the federal side either.
    One of the things that I think we learned from Alaska and 
what Shell was attempting to do in the offshore several years 
back was they recognized that there needed to be greater 
mapping. And so what we saw was the private sector industry 
needing to get the information, doing much of it themselves, 
and then sharing that information. We saw a partnering, if you 
will, that allowed for some of the work that I think most would 
expect has already been done up in Alaska.
    I would ask you, Kara, the effort right now on the offshore 
is pretty quiet after the Obama Administration. We do not know 
what the incoming Administration is going to be doing with the 
five-year lease sales. It is my hope that they are going to be 
relooking at that and that we will see renewed opportunities in 
our offshore. But can you speak to the collaboration that we 
have seen between industry and government as we are providing 
for some of what I call basic infrastructure, which is mapping 
and charting?
    Ms. Moriarty. Thank you, Senator.
    As you mentioned, you gave Shell as the example of how 
their industry investment led to increased infrastructure 
around the Arctic, whether it was supporting local communities 
so that they could support them, assuming that there would be a 
development. But that is not unusual. As I mentioned in my 
testimony, industry will invest private sector dollars if they 
think there is an economical project there and if they have the 
framework to do so.
    And that partnership between industry and whether at the 
federal, state, or local government frankly, has existed ever 
since we started oil and gas development in Alaska 60 years 
ago, starting in Cook Inlet. Some of those initial roads on the 
Kenai Peninsula were roads for oil and gas, and then they 
become shared roads. And then they become shared--it is the 
reason that you have a utility, and now you have a refinery. 
And the same way with the North Slope.
    The state relies an awful lot on our data, whether it is 
scientific data regarding polar bear denning, and the industry 
usually has the latest and greatest technologies that they can 
employ and deploy for whether it is, as you mentioned, mapping 
or other infrastructure needs. Having a strong partnership is 
important, and we view our partnership with the State of Alaska 
as just that, a partnership. And so there is a litany of 
examples that happened either during Shell or happen today 
about how when industry comes, there is a benefit for all.
    The Chairman. Let me ask you, Chris, because you mentioned 
the Connecticut Green Bank as something innovative. As we are 
looking to perhaps be a little more creative when it comes to 
financing because while we are talking about significant 
projects out of this Congress, it may or may not happen. I do 
not know. But what I do know is that Sitka is going to continue 
to struggle to deal with their energy situation. The fine folks 
in King Cove are paying for that debt servicing.
    What do we do? How can we be attractive to the outside when 
we are talking about microgrids, when we are talking about 
small systems that benefit small populations? And, again, that 
was why I asked--is there a bigger impact? I think we recognize 
that. But when you are looking at it on a spreadsheet, it costs 
a lot, with few people served. How do we become interesting to 
those investors? How do we lessen that risk that comes with an 
extraordinarily high-cost environment that Alaska just is?
    Mr. Rose. Senator, I think that is a really good question a 
lot of us are thinking about. As you said, there are a lot of 
communities that do not have a tax base. They do not have a lot 
of people there, and yet they are struggling every month to pay 
utility bills. The money is coming from somewhere. So what we 
want to be able to do is take that cash-flow and somehow be 
able to use it in a financing scheme.
    What the Green Bank has been able to do is really educate 
private investors, banks that do not really operate in the 
energy efficient and renewable energy space yet to make them 
understand how they can structure a deal so that the state can 
de-risk it a little bit. Maybe there is some federal money in 
there that helps de-risk it.
    It is really a no-brainer with energy efficiency. The 
Governor's office and a couple other folks down in Juneau asked 
Mr. Hunter this week, what is the pitfall? What do you have to 
worry about? And he said, ``waiting.''
    The Chairman. Waiting?
    Mr. Rose. Yes, waiting. Do not wait because we are spending 
this money. The status quo is we are spending $5 billion a 
year.
    But on the microgrids, we are a natural laboratory. We have 
these remote places. We have these really high energy costs. 
And when you are looking at just more mature technologies like 
wind and solar, it is really about the integration and use of 
storage. And the price of storage keeps coming down. So what we 
are really good at is not so much we are building a wind 
turbine or a solar panel. We are really good at integrating 
them. So we are like the chef that is putting all those 
ingredients together.
    One of the things we can be doing is exporting our 
expertise to those 700 million people around the world. We have 
been invited to several continents over the last couple years 
to talk about this, because even though we think we have a long 
way to go, we are seen as world leaders in these hybrid 
microgrids.
    But then there are all these emerging technologies, and 
storage would still be considered that because the price keeps 
diving. So there is a lot of new storage technologies coming.
    Electric vehicles are still something that is going to 
explode, but is that kind of a nascent point right now?
    Ocean power, tidal wave, hydrokinetics. We believe that 
those kinds of things are going to be commercialized in the 
future. But really Alaska is one of the only places certainly 
in the United States, if not the world, where developers are 
attracted because they can come in and do a pilot project and 
save money off the bat. You know, a $0.60 tidal power project 
does not do anything for you if you are in Boston, but if you 
are beating $0.70 power in a community, then all of a sudden 
you have got a little different economics.
    So these public-private partnerships for financing are 
possible. On the efficiency side, again I think they are really 
no-brainers. We just have to be able to package those deals for 
the private sector so they understand how to do it.
    Right now, for instance, the property assessed clean energy 
programs that are around the country. Thirty states now have 
PACE. Our state legislature is about to pass a PACE program, 
and that is going to allow commercial building owners another 
financial tool to borrow money from a local tax assessment 
district and pay back that loan on the retrofit for their 
building through a tax assessment. But guess what? You know, 
the municipalities do not want to be the lenders, so the banks 
come in, and then they are the ones who are providing that 
money.
    And when Connecticut first started doing this, they had a 
tough time just kind of getting the ball rolling. Now basically 
the banks just take it all. They have facilitated the process 
to where now the banks are taking all that because they are 
making money, and it is a very secure loan.
    So I think there are ways for us to do it, but the federal 
support in R&D is super important. We are not going to benefit 
on things like ocean power if we do not have also federal 
support for those kinds of technologies because the Europeans 
are doing that. I mean, there is a great center for that in 
Scotland right now, and there are places around the world who 
see this stuff is going to happen. So for America generally to 
be supportive of renewable energy on a level playing field is 
really going to help Alaska do the same thing. We have great 
relationships with the national laboratories, and we would like 
to see those continue.
    The Chairman. I think the national labs are key, and what I 
keep pressing them on is we can be your real-life incubator up 
here because we have got a lot of good ideas. We have got a lot 
of people that are not held back by saying, well, we tried that 
before and it did not work. I think we have a lot to advertise 
in that way.
    I always look at, particularly, our southeast communities 
that are really powered by hydropower, whether it is Sitka or 
Ketchikan or Juneau. They are on an island. Why do the electric 
vehicle manufacturers not say, aha, you are my test case 
because I know that I am not going to really have to worry 
about building a system of charging stations that stretches 
across the country. You only have 14 miles in Sitka. Is that 
what you said? I think we can do charging stations along 14 
miles. Use these communities that are powered by hydro to 
figure out how you make it work.
    You brought up a point, though, Chris, that we have a 
renewable energy fund in Alaska. Unfortunately, it has no 
money. The opportunity to be the great innovator on the state 
side has really slowed us down.
    Again, in Alaska, we are blessed to have an abundance of 
wealth. We have got the renewables and the potentials, but we 
also have our traditional fuels. We have our minerals. We have 
our oil. We have our gas. And we can use that to help fund the 
opportunities and the build-out for our renewable potential. We 
need to be unleashed to do just that.
    So I want to ask you, Kara. NPRA. We are all talking about 
how we get that oil pipeline, how we get TAPS full up again. It 
was four years ago that President Obama approved a new land 
plan for the National Petroleum Reserve Alaska (NPRA), and he 
basically put 52 percent of the NPRA off limits. It did leave a 
corridor for a west-east pipeline. But I guess the question to 
you is in view of the actions that were taken under the 
previous Administration and the opportunities that we now have 
in a new Administration, your thoughts on whether that plan 
should be revised and revisited.
    Can you talk just a little bit about the opportunities that 
exist within the NPRA? Obviously, there is a great deal that is 
going on that is exciting on the state side with some of the 
recent finds, but more specific to the federal aspect and 
opportunities within the National Petroleum Reserve Alaska, and 
how we work to make sure that as we develop, we do so with care 
for the environment, for the wildlife, the waterfowl, just 
speaking to NPRA here.
    Ms. Moriarty. Well, thank you, Senator.
    As you mentioned, the current land use management plan in 
the National Petroleum Reserve Alaska I would characterize as 
problematic at best. Even though some can say well over half of 
it is available, if you look at a map now of NPRA and the land 
use and where you can and where you cannot, it is like a 
patchwork quilt. It is hard to decipher. It almost looks like 
the land ownership map of Alaska as being complicated.
    There are a lot of wonderful opportunities. Obviously, we 
have the first production from NPRA now finally. And that goes 
to what I was referencing before. Taking seven years to get a 
bridge across a river really impedes industry's appetite for 
putting private sector dollars in either federal lands or local 
lands or state lands. And we think there is more oil around 
NPRA. We had a very successful lease sale around those same 
prospects, if you will, of where Conoco Phillips currently is.
    But there is also some really exciting developments just 
outside NPRA. I think Mr. Masterman mentioned it with the 
Willow discovery of Conoco. That is a 120,000 barrel a day a 
field. So let us start doing some math. So current production 
is around 500,000. It might actually be a little higher, 
540,000 barrels a day. So we think that field could have 
100,000 to 120,000 barrels a day.
    Just north of NPRA is a major new discovery called Smith 
Bay by Caelus Energy. It could have as much oil as Kuparuk. It 
is a massive discovery. Now, it is 120 miles from TAPS. And the 
challenge will be with the current land use management plan how 
will we build a pipeline because you are not going to do a 
zigzag, the corridor that may or may not have worked if we get 
an east-west pipeline across NPRA from the Chukchi--that is not 
going to work. That corridor did not have Smith Bay in mind. So 
that could be another 100,000 plus, 200,000, maybe even up to 
200,000 barrels a day. So if you go Smith Bay, then you go over 
to Willow, then you have Armstrong and Repsol have announced a 
new discovery in the Pikka unit, that is 100,000 barrels a day. 
Then if you keep going over to TAPS, if I have my map here, 
just north of that is where the Liberty project is, and that is 
in federal waters, and that could be 70,000 barrels a day.
    So if you put all of those projects in what I call near-
term--and near-term in Alaska is five to ten years. But if all 
of those projects came online in the next decade, which is 
reasonable--it is not out of the question--we could double our 
production, which would be absolutely significant not only for 
the industry but really for Alaska's economy.
    So we are very encouraged by the new Administration's 
interest in looking at some of these previous decisions. We are 
encouraged by the decision that was made yesterday in looking 
at other areas around my friends in the coal industry. So we 
are hopeful that this Administration will revisit what we think 
are unreasonable expectations and management plan.
    But we are not asking for access anywhere and everywhere to 
do anything we want, and I think that is an important point to 
emphasize. Of course, we want to protect the environment that 
we live in and work in, and we want to work with those 
communities closest to the environment in our projects. And on 
the North Slope, we are talking about the Village of Nuiqsut. 
We want to be in lockstep.
    But you also have to start thinking about the community of 
Barrow. They are very excited about what the Smith Bay 
opportunity could mean for them and actually getting a road 
from Barrow potentially all the way to TAPS and to connect to 
the Dalton Highway. They are very landlocked, as the Port of 
Nome or down in King Cove.
    And so there is a lot of excitement, and I think that is 
why it will be really important that as we look at these 
opportunities, that all of the stakeholders are at the table 
together so that we can identify these common core corridors 
that not just have a benefit for an oil prospect like Smith 
Bay, but can really benefit the whole community.
    The Chairman. Steve, do you want to add to that?
    Mr. Masterman. Yes. Thank you, Senator. I just would like 
to speak a little bit to add to Kara's comments about the 
potential inside the NPRA and in the near-shore waters just 
north of there.
    The discoveries by Conoco and by Armstrong and by Caelus 
are essentially new play types on the North Slope, which means 
that those play types are essentially unexplored for the rest 
of the area.
    So just to be a little geeky, the Willow and Pikka unit 
discoveries in deltaic sediments that were deposited by a river 
that flowed from west to east, and those same sediments have 
been found in drill core on the west coast of Alaska at 
Wainwright. That is 200 miles away. They did not have any oil 
in Wainwright, but those same rocks were highly porous, highly 
permeable, an excellent reservoir host if oil was present. That 
is 200 miles of essentially unexplored territory between there 
and the Willow discovery that is in NPRA.
    The same can be said for Caelus' Smith Bay discovery. Those 
sequences of rocks are also essentially unexplored along the 
Barrow arch, along that stretch of the coast.
    So the potential for additional discoveries in that part of 
the state is extremely high. And as an economic geologist, that 
is what we like to call blue sky potential because there is a 
lot of blue sky there, Senator.
    The Chairman. Good to hear.
    You know, when we talk about any kind of a project, though, 
you need to be able to get your permits, you need to have a 
little bit of regulatory certainty. That is something that we 
have heard in all three of the prior infrastructure hearings 
that we have had. My hope is that we will have a little bit 
more success with where we are with just moving forward from a 
certainty perspective and from an ease of permitting, not 
relaxing on standards, but just making sure that there is a 
process with some deadlines that you can kind of count on 
because I do realize that when you are sitting and waiting for 
the permits and they are not coming, that means you are sitting 
on the opportunity to advance a project and that costs money. 
So that makes everything a little more complicated.
    I am told that I have less than five minutes on the vote, 
so I am going to have to excuse myself. Because we are on 
Senate time, so I think if everybody has like 22 seconds to say 
one thing that you want this Energy Committee to remember about 
Alaska and Alaska infrastructure, what would it be? Steve, we 
are going to start with you. One thing on Alaska 
infrastructure.
    Mr. Masterman. We need a lot more of it, Senator. We need 
more roads primarily to access the mineral-bearing lands. As I 
mentioned in my testimony, almost all of the mines and the 
advanced stage projects are within 50 miles of a road. If you 
are more than 50 miles away from a road, the economics get a 
lot harder. So we need more roads, a road west to Nome. A road 
down along the Kuskokwim River road on the west side of the 
Alaska Range would open up vast areas of the state to mineral 
development.
    The Chairman. We are one-fifth the size of the country, and 
we have less than one percent of the roads.
    Mr. Masterman. That is correct, Senator. It is actually 
less than one-half of one percent of the roads.
    The Chairman. Less than one-half of one percent. I 
overstated. Okay.
    Mr. Masterman. So really more roads. More access equals 
more development just because it reduces the cost of developing 
those facilities.
    The Chairman. Good, great.
    Bob.
    Mr. Potrzuski. Capital costs in Alaska are significantly 
higher than elsewhere.
    The Chairman. And we need to appreciate and understand that 
up here because it is not always apples to apples, and I really 
appreciate you bringing that up.
    Joy.
    Ms. Baker. Yes. Thank you, Senator.
    The Port of Nome is an existing developed port facility. We 
are ready to move forward with expansion to address the needs 
of the larger vessel fleet.
    The Chairman. Shovel ready.
    Kara.
    Ms. Moriarty. Senator, I think on this 150th anniversary of 
the Alaska purchase, I think it would be important to remind 
your colleagues that if there is a cost-benefit analysis done 
today, like your colleagues are asking you to do for Alaska 
projects, it probably would not pencil, but it was probably a 
good deal. And if they are looking for big projects, that is 
all we do in Alaska is big. We have big mines. We have big 
fish. We have big timber, and we have big oil and gas.
    The Chairman. It is all good. Big.
    Chris.
    Mr. Rose. I would say that the entire world is going toward 
renewable energy. More than 50 percent of all new capacity 
worldwide last year was renewable energy on the planet, and 
that does not include large hydro. And a lot of that is 
distributed generation, meaning small places. We are the place 
where we have small, remote communities more than any other 
place in the United States. We can be world leaders in America 
and all over the planet in distributed generation and 
integration of renewables.
    The Chairman. We can be big in the small things.
    Mr. Rose. Right.
    The Chairman. Good.
    Della.
    Ms. Trumble. Thank you, Senator.
    I think I am going to go with the roads and transportation 
corridors. It is very important. You know, having the renewable 
energy in our small community helps a lot, but when we are not 
able to get outside or get in, I think that hurts us more and 
that cost savings that we have on like the renewable energy has 
a bigger impact on us to be able to survive as small 
communities.
    The Chairman. Access. Very, very important. Very much 
appreciated.
    I know that you all took a lot of your time and effort to 
be here and know that it is greatly and deeply appreciated.
    Anything else that you would care to add for the record, we 
will be happy to do so. Thank you for your presence today, and 
thank you for contributing to an important hearing. And thank 
you for continuing to build our state's record when it comes to 
an amazing and historic place. So thank you very much.
    We stand adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                   [all]
</pre></body></html>
